U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Massachusetts Lobstermen’s Association, et al. v. Wilbur Ross, Secretary of
Commerce, et al., No. 20-97
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 27, 2020.
The government’s response is now due, after one extension, on September 30, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 30, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0097
MASSACHUSETTS LOBSTERMEN'S ASSOCIATION,
ET AL.
WILBUR ROSS, SECRETARY OF COMMERCE, ET
AL.

STEVEN J. ALAGNA
ASSOCIATE
BRYAN CAVE LEIGHTON PAISNER LLP
ONE METROPOLITAN SQUARE
211 NORTH BROADWAY, SUITE 3600
ST. LOUIS , MO 63102
314-259-2045
STEVEN.ALAGNA@BCLPLAW.COM
PAUL BEARD II
FISHERBROYLES, LLP
5670 WILSHIRE BLVD
SUITE 1800
LOS ANGELES, CA 90036
818-216-3988
PAUL.BEARD@FISHERBROYLES.COM
LAWSON E. FITE
AMERICAN FOREST RESOURCE COUNCIL
700 N.E. MAULTNOMAH
SUITE 320
PORTLAND, OR 97232
503-222-9505
LFITE@AMFOREST.ORG
503-222-3255(Fax)

STANFORD PURSER
DEPUTY SOLICITOR GENERAL
OFFICE OF THE UTAH ATTORNEY GENERAL
160 E. 300 S.
SALT LAKE CITY, UT 84111
801-366-0379
SPURSER@AGUTAH.GOV
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
JONATHAN CALVIN WOOD
PACIFIC LEGAL FOUNDATION
3100 CLARENDON BLVD.
SUITE 610
ARLINGTON, VA 22201-5330
202-888-6881
JWOOD@PACIFICLEGAL.ORG

